Audit of the Commission's Management of Computer Software:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of the Commission's Management of Computer Software: Executive Summary
March 31, 1999
If you require the entire printed version of the audit report, contact
the Office of Inspector General, Federal Election Commission, 999 E Street,
NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant,
phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The primary objectives of our audit were to:  (1)  verify
that Commission computer software is in compliance with applicable copyright
laws and Commission policies and procedures; (2) determine that adequate
policies and procedures are in place to prevent unauthorized software use
by Commission employees; and (3) ensure that adequate controls are in place
to detect and prevent computer viruses.
The audit field work was conducted between September 1998 and January
of 1999.  We performed preliminary research, and conducted our unannounced
inspection of personal computers (PCs) prior to the start of our field
work.  In order to achieve our stated objectives, we reviewed documentation,
conducted interviews with Commission staff, inspected Commission computers,
and contacted external organizations for information related to the audit.
Our audit was conducted in accordance with the General Accounting Office's
Government Auditing Standards.
Our audit examined the management of computer software programs installed
on Commission computers to ensure that software complies with applicable
copyright laws and Commission policies and procedures.  We generally
found that the majority of the software installed on the Commission computers
we inspected was in compliance with applicable software copyright laws.
However, we did find that unlicensed software was installed on Commission
computers.  We believe the primary reason the unlicensed software
existed is because the Data Systems Development Division (DSDD) does not
have an adequate record keeping system to ensure that computer software
installed on Commission computers complies with applicable copyright laws.
We suggest that DSDD develop an adequate record keeping system to ensure
that all software installed on Commission computers complies with copyright
laws.  The suggestion is contained in the Audit Testing and Results
section of this report.
We also reviewed the Federal Election Commissions (FEC) policies and
procedures related to computer software use by employees.  The purpose
of the review was to determine whether adequate policies and procedures
are in place to prevent unauthorized software use by Commission employees.
We reviewed the FEC's Directive 58 which contains controls over computer
software, and inspected the Computer User Agreements to determine if all
employees have signed the agreement to abide by the Commissions policy
on computer software use.  We also conducted an unannounced inspection
of a sample of Commission computers to determine whether the computer software
installed on the PCs was authorized in accordance with Directive 58.
Overall, we believe adequate policies and procedures are in place to
prevent unauthorized software use by Commission employees.  We provided
management with several suggestions for improvement.  These are contained
in the Audit Testing and Results section of this report.  In
addition, we intend to provide the results of our unannounced inspection
of PCs to employees and management.  We will provide a listing to
employees and management which includes the unidentified software programs
found on the PCs, and request that employees remove any unauthorized software
from their computers.
Lastly, we reviewed the FEC's anti-virus software system.  In general,
the purpose of the review was to verify that the current version of anti-virus
software is installed on Commission personal computers (PCs) and laptop
computers to prevent and detect computer viruses.  We found that the
majority of the Commissions personal computers and laptops have the current
version of anti-virus software installed.  However, we concluded that
controls need to be strengthened to ensure the Commission computers are
adequately protected against computer viruses.  We recommend that
anti-virus software and the current virus data files are installed on all
PCs and laptops, and that written procedures are issued which will provide
guidelines on ensuring that the Commission's computers are adequately protected
from computer viruses.  [See the Audit Findings and Recommendations
section of this report for more detail]